                                       SOCIAL SECURITY
MEMORANDUM

Date:      August 7, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Overstated Earnings and the Effect on Social Security Administration Programs
           (A-03-05-25018)


           The attached final report presents the results of our audit. Our objectives were to
           determine whether Title II beneficiaries were overstating self-employment income on
           their Federal income tax returns, and, if so, the effect on Social Security Administration
           programs.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                                   Patrick P. O’Carroll, Jr.
           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 OVERSTATED EARNINGS AND THE
  EFFECT ON SOCIAL SECURITY
  ADMINISTRATION PROGRAMS

  August 2007       A-03-05-25018




 AUDIT REPORT




                .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                    Executive Summary

OBJECTIVE
Our objectives were to determine whether Title II beneficiaries were overstating self-
employment income (SEI) on their Federal income tax returns, and, if so, the effect on
Social Security Administration (SSA) programs.

BACKGROUND
SSA field offices (FO) have reported that Title II beneficiaries have been overstating SEI
on their Federal income tax returns to become eligible for the Internal Revenue
Service’s (IRS) Earned Income Tax Credit (EITC). This credit can be claimed by lower-
income earners. In addition to allowing EITC eligibility, the overstated SEI could allow
the individuals to acquire Social Security credits for future Title II and Medicare benefits,
which could increase their monthly Title II benefits. SSA will remove the SEI from an
individual’s earnings record if the individual disclaims the earnings (e.g. states that the
earnings do not represent legitimate earnings activity).

RESULTS OF REVIEW
We found 2,348 SEI earnings items related to 1,355 individuals with Title II records who
reported SEI in Tax Years (TY) 2000 to 2003 that were later removed from each
earnings record at the individual’s request. Based on information in SSA’s records, we
determined the following:

             Reason for Overstated                   Number of Removed            Percent of Total
           Self-Employment Income (SEI)                Earnings Items            Removed Earnings
  Individual stated SEI was reported to
                                                              166                         7
  obtain the EITC
  Reported SEI related to potential tax
                                                              101                         4
  fraud1
  Individual stated SEI was reported to
  obtain the Social Security credits to                        15                         1
  qualify for benefits or increase benefits
  Reason unknown: SSA’s systems did not
                                                            2,066                        88
  contain sufficient information
     Total                                                  2,348                     100%
Note 1: While some form of potential tax fraud was mentioned by the individuals disclaiming the
earnings, they did not specifically name the EITC as the primary factor.

We also found a number of issues related to SSA’s processing of disclaimed earnings.
For instance, we found that some of the removed earnings were erroneously placed in
SSA’s Earnings Suspense File rather than deleted from SSA’s systems. As a result, at
a later time some of these earnings were manually placed back on individuals’ earnings


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                   i
records in error by other field offices. We also found instances where SSA removed
disclaimed earnings from earnings records but took no actions for similar questionable
earnings on the same record. These incomplete actions can potentially lead to the
overpayment of benefits.

In addition, we determined that FOs were not always reporting the disclaimed earnings
to the IRS nor collecting the required information on the Statement of Claimant or Other
Person (SSA-795) needed by the IRS to investigate these instances of potential tax
fraud. We also found that the earnings item correction data shared with the IRS
regarding disclaimed earnings was provided in a paper form rather than electronically,
which may not be the most efficient method for sharing such data.

CONCLUSION AND RECOMMENDATIONS
To ensure consistent procedures for removing disclaimed earnings as well as the
sharing of this information with the IRS, we recommend that SSA:

•   Review the questionable earnings items identified in this audit where earnings may
    need to be removed from individuals’ earnings records to prevent improper future
    SSA payments.

•   After incorporating information included in this report, as appropriate, issue national
    instructions to FOs for processing SEI cases where income has been overstated,
    including information on when to delete such earnings, how to document such cases
    in SSA’s electronic records, when to notify the IRS, and how to complete and
    forward Form SSA-795.

•   Upon issuance of national instructions to FOs for processing SEI cases where
    income has been overstated, provide appropriate training to FO staff to ensure
    consistent implementation.

•   Discuss data-sharing options with the IRS to determine if an electronic version of
    item correction transactions would be more useful.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix F.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                        ii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

Removed Self-Employment Income ........................................................................ 4

    •    Reasons for Removed Earnings ................................................................... 5
    •    Regional Distribution of Overstated Earnings ............................................... 8

Resolution of Disclaimed Earnings .......................................................................... 8

    •    Earned Income Tax Credit and SSA Payments ............................................ 9
    •    Questionable Earnings Not Addressed....................................................... 10
    •    Unknown Reasons ..................................................................................... 10
    •    Reinstatement From the ESF to Earnings Records .................................... 11

Coordination with the Internal Revenue Service ................................................... 12

    •    Notifying the IRS of Earnings Involving Fraud ............................................ 12
    •    Providing Sufficient Information to the IRS ................................................. 13

Social Security Administration Actions .................................................................. 14

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 15

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – The Earned Income Tax Credit

APPENDIX C – Scope and Methodology

APPENDIX D – Non-Legitimate Earned Income Tax Credit Process

APPENDIX E – Regional Instructions for Processing Overstated Self-Employment
             Income Cases

APPENDIX F – Agency Comments

APPENDIX G –OIG Contacts and Staff Acknowledgments


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                                                            Introduction
OBJECTIVE
Our objectives were to determine whether Title II beneficiaries were overstating self-
employment income (SEI) on their Federal income tax returns, and, if so, the effect on
Social Security Administration (SSA) programs.

BACKGROUND
SSA is responsible for maintaining accurate individual earnings records, including
wages and SEI. Wages and SEI are posted to SSA’s Master Earnings File (MEF) and
are used to determine eligibility for retirement, survivors, disability, and health insurance
benefits as well as to calculate benefit amounts. Self-employed individuals report SEI to
the Internal Revenue Service (IRS) on a Profit or Loss from Business (Schedule C) and
Self Employment Tax (Schedule SE) attached to a Federal income tax Form 1040. 1
The IRS sends this SEI information to SSA where it is recorded on an individual’s
earning record. 2

Reporting earnings activity to the IRS, even if that activity never occurred, could make
an individual eligible for the Earned Income Tax Credit (EITC), which is a refundable
Federal income tax credit created in 1975 for working individuals. To claim the EITC,
individuals must meet eligibility requirements, including earned income for the tax year
(TY) and a valid Social Security number (SSN) for all individuals on the tax forms. 3
Earned income includes wages and SEI and must be below a specific amount
($34,692 in TY 2003) to qualify the individual for the EITC. Earned income between
$10,500 and $14,750 qualified an individual for the maximum EITC in TY 2003 (see
Appendix B).




1
 Tax Guide for Small Business (For individuals who use Schedule C or C- EZ), IRS Publication 334,
2006.
2
 SSA Program Operations Manual System (POMS), RS 01801.011.A – Processing of SEI Tax Returns
and Crediting Self-Employment Income.
3
  Earned Income Credit (EIC), IRS Publication 596, 2006. Other eligibility requirements include (1) filing
status restrictions, (2) citizenship or resident alien requirements, and (3) income restrictions.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                           1
SSA field offices (FO) have reported that Title II 4 beneficiaries have been overstating
SEI on their Federal income tax returns to become eligible for the EITC. 5 In addition to
allowing EITC eligibility, the overstated SEI could allow the individuals to acquire Social
Security credits for future Title II and Medicare benefits, which could increase their
monthly Title II benefits.

SSA FO staff reported that much of the erroneous SEI they encountered was reported
for such work as cutting hair, yard work, and babysitting. The FOs also reported that
the individuals overstating their income may have been encouraged by unscrupulous
tax preparers who benefited from filing suspicious Federal tax returns with the IRS.

SSA removes the SEI from an individual’s earnings record when it believes the SEI
does not represent legitimate earnings. If the earnings could belong to someone else,
SSA places the earnings in the Earnings Suspense File (ESF). 6 When SEI is removed,
the IRS has requested that SSA obtain a Statement of Claimant or Other Person
(SSA-795) from individuals suspected of overstating SEI. The form is used to record a
statement, and the individual attests the information is true. 7 The form requests specific
information to assist the IRS, including a statement that (1) the SEI did not belong to the
individual, (2) the individual never earned the SEI and used the SEI to qualify for the
EITC, and (3) the person knew it was wrong to overstate the SEI.

SCOPE AND METHODOLOGY
We reviewed cases where SSA had removed SEI originally posted for TYs 2000 to
2003 and met specific criterion, such as dollar amounts. We used data from this earlier
time period since it allowed sufficient time for the SEI to be posted and then disclaimed
by the earner. We believe the problem of individuals claiming overstated SEI is more



4
 A Title II record is a Master Beneficiary Record that contains data for currently entitled beneficiaries,
denied/disallowed beneficiaries, previously entitled beneficiaries, and uninsured Medicare enrollees.
5
  FOs investigate earnings reported under the SSNs of individuals receiving Title II benefits if the
earnings are above specific amounts. Earnings reported for disabled beneficiaries are reviewed as part
of SSA’s Continuing Disability Review Enforcement Operation (SSA POMS, DI 40510.030 – Continuing
Disability Review Enforcement Operation), and earnings for retired persons are reviewed under the
Annual Earnings Test (SSA POMS, RS 02501.021 – The Annual Earnings Test).
6
  The ESF is a repository for reported earnings items with names/SSNs that do not match SSA’s records
or have other questionable characteristics, such as disclaimed earnings. SSA maintains two ESFs: one
for wage items reported on a Form W-2 that cannot be matched to SSA’s name and SSN records and
another for SEI that does not match SSA’s records. As of October 2006, there were 264 million wage
items representing $586 billion in wages and 2.4 million SEI items pertaining to $12.7 billion in earnings.
7
  The penalty clause on the SSA-795 states, “I declare under penalty of perjury that I have examined all
the information on this form, and on any accompanying statements or forms, and it is true and correct to
the best of my knowledge. I understand that anyone who knowingly gives a false or misleading statement
about a material fact in this information, or causes someone else to do so, commits a crime and may be
sent to prison, or may face other penalties, or both.”


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                            2
widespread than we are reporting. We only reviewed SEI earnings items removed by
SSA, 8 subject to EITC income limits, and reported under the SSNs of individuals with a
Title II record.

Using information within SSA’s records, we focused on those cases where (1) the
reason cited for the overstated SEI was potential tax fraud and/or SSA benefits or
(2) the SEI was removed and there was insufficient information to determine why the
SEI was originally reported. See Appendix C for our full scope and methodology.




8
 We did not review SEI removed by the IRS and later reported to SSA since the IRS would already be
aware of these adjustments.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                   3
                                                          Results of Review
We found 2,348 earnings items related to 1,355 individuals with Title II records who
reported SEI in TYs 2000 to 2003 that were later removed from each earnings record at
the individual’s request. These 2,348 earnings items totaled about $21 million in
overstated SEI, all of which SSA initially removed from the earners’ records. Table 1
below provides information on why the disclaimed earnings were reported to SSA, as
indicated in the Agency’s records.

                         Table 1: Reasons for Disclaimed Earnings
             Reason for Overstated                     Number of Removed            Percent of Total
           Self-Employment Income (SEI)                  Earnings Items            Removed Earnings
  Individual stated SEI was reported to
                                                                166                           7
  obtain the EITC
  Reported SEI related to potential tax
                                                                101                           4
  fraud1
  Individual stated SEI was reported to
  obtain the Social Security credits to                          15                           1
  qualify for benefits or increase benefits
  Reason unknown: SSA’s systems did not
                                                              2,066                          88
  contain sufficient information
     Total                                                    2,348                       100%
Note 1: While some form of potential tax fraud was mentioned by the individuals disclaiming the
earnings, they did not specifically name the EITC as the primary factor.

We also found a number of issues related to SSA’s processing of disclaimed earnings.
For instance, we found that some of the removed earnings were erroneously placed in
SSA’s ESF rather than deleted from SSA’s systems. As a result, some of these
earnings were erroneously placed back on individuals’ earnings records. We also found
instances where SSA removed disclaimed earnings from earnings records but took no
actions for similar questionable earnings on the same record. In addition, we
determined that FOs were not always reporting the disclaimed earnings to the IRS nor
collecting the required information needed by the IRS to investigate these instances of
potential tax fraud. We also found that the earnings item correction data shared with
the IRS regarding disclaimed earnings was provided in a paper form rather than
electronically, which may not be the most efficient method for sharing such data.

REMOVED SELF-EMPLOYMENT INCOME
We found 2,348 earnings items related to 1,355 individuals with a Title II record who
reported SEI in TYs 2000 to 2003 that was later removed from the individuals’ earnings
record at their request. SSA removed about $21 million in overstated SEI reported over
this 4-year period related to these 2,348 earnings items. Table 2 provides details on the
number of years during our review period that individuals reported overstated SEI that
SSA later removed. We found that approximately 19 percent of the individuals
overstated income for 3 or more years.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                 4
         Table 2: Distribution of Removed Earnings Items by Individual Earner
                                     (TYs 2000 – 2003)
         Number of Tax
             Years                   Number of
         with Removed                Removed                     Number of                 Percent of
            Earnings               Earnings Items                Individuals              Individuals
               4                         224                          56                       4.1
               3                         620                         203                      15.0
               2                         803                         397                      29.3
               1                         701                         699                      51.6
             Total                      2,348                       1,355                    100%
Note: SSA removed multiple earnings items for the same years for some individuals in our 4-year review
period.

REASONS FOR REMOVED EARNINGS

Using information from SSA’s Item Correction (ICOR) system, 9 we found that individuals
overstated SEI for a variety of reasons (see Figure 1), including:

     •   166 earnings items were reported to obtain the EITC (7 percent);
     •   101 earnings items potentially related to income tax fraud (4 percent); 10
     •   15 earnings items were reported to obtain Social Security coverage (1 percent);
         and
     •   2,066 earnings items reported for other undeclared/unrecorded reasons
         (88 percent).

We found that 142 (50 percent) of the 282 earnings items where we could determine
why the SEI was originally reported involved tax preparers completing the Federal
income tax returns. Based on SSA’s records, we determined that paid preparers
assisted with 137 of the cases, and family members (sister, daughter, and brother-in-
law) were named as preparers in the remaining five cases.




9
  ICOR was formerly called Earnings Modernization 2.8 (EM 2.8) and is used by SSA personnel to add,
remove, and adjust earnings.
10
  While some form of potential tax fraud was mentioned by the individuals disclaiming the earnings, they
did not specifically name the EITC as the primary factor.



Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                       5
                              Figure 1: Reason for Reporting Overstated
                                       Self-Employment Income

                                                                 Tax Fraud
                                                                    4%
                                                                           EITC
                                                                            7%


                                                                            SSA Benefits
                        Unknown                                                 1%
                          88%




Earned Income Tax Credit

SSA’s records indicated that 166 (7 percent) of the 2,348 earnings items were removed
after the individuals stated they reported this income to obtain the EITC. These
166 earnings items related to 91 individuals and approximately $1.3 million in earnings.
In one example, SSA staff removed approximately $37,000 in SEI over a 5-year period
from the earnings record of a Texas resident. Field office staff noted in the ICOR
system that the individual’s tax preparer reported self employment earnings for years
1999 through 2003 to claim the EITC, and the individual “stated he had never owned or
operated a business during the years in question.” 11

Apparent Income Tax Fraud

Another 101 earning items (4 percent) were removed after individuals stated they were
attempting some form of Federal income tax fraud. These 101 earnings items, totaling
over $832,000, were originally reported by 59 individuals. Although we are not aware of
any formal charges of fraud against these individuals, they admitted misrepresenting
their financial circumstances on Federal income tax forms. SSA’s records indicated the
individuals did not work, but reported SEI on their Federal tax forms. However, specific
reasons for reporting the earnings, such as the EITC or Social Security benefits, were
not mentioned.

In one case, SSA removed SEI of close to $29,000 recorded for a 4-year period. The
individual stated to SSA that, based on the advice of her accountant, she ran a “child
care business.” In fact, she was caring for her 11 year-old granddaughter. 12

11
  Approximately $7,300 of this amount related to TY 1999, which is outside of our review period. This
35-year-old individual (in 2003) became entitled to Title II disability benefits in January 1998.
12
  Almost $4,000 of the reported SEI was for TY 1999, which is outside of our review period. This
individual has been receiving Title II disability benefits since October 1999.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                      6
Social Security Administration Coverage and Benefits

Information in SSA’s records also indicated an additional 15 overstated earnings items
(or 1 percent of the overall earnings items) were reported to obtain Social Security
credits 13 to qualify for benefits or increase existing benefit amounts. These 15 earnings
items were reported by 7 individuals and totaled approximately $128,500 in earnings.

In one example, SSA removed 2 years of overstated SEI totaling almost $25,000 from
the earnings record of a California resident. SSA staff noted in the ICOR system that
the individual stated, “his brother-in-law did SE returns for him for 2001 and 2002 even
though he did not work so that he could receive SSA credits.”14

Unknown Reasons

For the remaining 2,066 earnings items (88 percent), we were unable to determine why
the income was originally reported since SSA’s records did not provide sufficient
information pertaining to the transactions. These 2,066 earnings items were reported
by 1,198 individuals and totaled approximately $18.7 million in earnings. There are
several possible explanations for SSA removing these earnings, including reporting
errors, 15 identity theft, 16 scrambled earnings, 17 and SSN misuse. 18 SSA’s records did
not provide sufficient information as to why the SEI was originally reported, even when
multiple years of SEI was removed from an individual’s earnings record.

As an example of these types of cases, FO staff in California removed almost $29,000
in SEI for 2000 through 2003 and noted in the ICOR system that the individual stated “I
have never claim (sic) self employment.”19


13
  Individuals earn Social Security credits, previously called Quarters of Coverage, by working and paying
taxes. In 2003, one credit was earned for each $890 earned, up to a maximum of $3,560 annually.
These credits count toward eligibility for future Social Security benefits (SSA POMS, RS 00301.250 –
Increment Amounts).
14
  This individual became entitled to Social Security retirement benefits and Supplemental Security
Income payments in September 2003.
15
     Reporting or clerical errors are made in recording information.
16
  Identify theft occurs when someone uses the personal identifying information of another person, such
as name, SSN, driver’s license number or mother’s maiden name, without authorization and for an
unlawful purpose (SSA POMS, RM 00205.051.B – Identify Theft and SSA Fraud).
17
  Scrambled earnings are wages or SEI belonging to one individual that are posted to another
individual’s earnings record (SSA POMS, RM 03870.045.A – Scrambled Earnings – General).
18
  SSN misuse occurs when the SSN is used with criminal or harmful intent (SSA POMS, RM 00205.054
– New SSN Requests Where SSN Misuse and Disadvantage is Alleged).
19
  This individual, born in 1960, became entitled to disability benefits under both Social Security (in
June 1996) and Supplemental Security Income (in August 1996).


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                       7
REGIONAL DISTRIBUTION OF OVERSTATED EARNINGS

We found disclaimed SEI items related to potential tax fraud and/or attempts to acquire
SSA benefits in 8 of SSA’s 10 regions (see Figure 2). The largest numbers of instances
were in the Dallas, New York, and Atlanta Regions. The Denver and Seattle Regions
did not have any disclaimed earnings items in this category. The absence of disclaimed
SEI related to claims for the EITC and/or Social Security benefits does not mean such
problems did not occur in these regions. Some regions may be better at detecting
overstated earnings and recording why the earnings were originally reported. Our
review was limited to problems detected by FOs and not all potential problems in SSA’s
records. Additional undetected cases of individuals reporting overstated earnings may
exist that have not come to our or SSA’s attention. All 10 regions also removed
earnings items where we could not determine why the earnings were originally reported
(we discuss this later in our report).

                   Figure 2: Regional Distribution of Overstated Earnings
                       Related to IRS/SSA Benefits (TYs 2000 - 2003)


                  Denver

                  Seattle

                  Boston

              Kansas City
  Regions




             Philadelphia

                 Chicago

            San Francisco

                  Atlanta

                New York

                   Dallas


                            0   20        40         60         80          100
                                          Earnings Items

RESOLUTION OF DISCLAIMED EARNINGS
Among the 282 disclaimed earnings items related to potential tax fraud and/or attempts
to acquire SSA benefits, we found that 11 percent were placed in the ESF rather than
deleted from SSA’s earnings records. SSA staff are expected to delete earnings that do
not represent legitimate work activity rather than place them into the ESF. We also
found that the removal process often missed other questionable earnings. In addition,
we found SSA deleted approximately one-third of the 2,066 earnings items that were
disclaimed for unknown reasons, indicating these items may have represented tax fraud
and/or an attempt to obtain SSA benefits. Finally, we found cases where removed
earnings were later placed back on individuals’ records in error.



Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                    8
EARNED INCOME TAX CREDIT AND SSA PAYMENTS

While SSA properly deleted most of the 282 earnings items associated with potential tax
fraud and/or attempts to acquire SSA benefits, we found that 30 items (11 percent) were
moved to the ESF. These 30 earnings items totaled over $286,000 in overstated SEI,
an average of $9,557 per item for our review period. Placing earnings items in the ESF
is appropriate when the identity of the person who earned the money is unknown. 20
However, when the individual disclaims the earnings and states they overstated the
SEI, the earnings should be deleted since they do not represent a real work activity.
Deletion permanently removes the earnings from the earnings system so they cannot
be posted to another record, whereas moving earnings items to the ESF allows for the
possibility that someone may later receive credit for earnings that should never have
been reported. 21 The 30 earnings items moved to the ESF were in the SSA regions
shown in Table 3.

     Table 3: Earnings Items Erroneously Moved to the ESF (TYs 2000 – 2003)
                                Total Earnings Items          Earning Items             Percent of
                                     Disclaimed            Erroneously Posted         Earnings Items
           SSA Region                (EITC/SSA)                 to the ESF           Posted to the ESF
           Chicago                          10                       3                     30
         San Francisco                      27                       7                     26
           New York                         81                      10                     12
            Atlanta                         52                       4                      8
             Dallas                         97                       6                      6
          Philadelphia                       8                       0                      0
            Boston                           3                       0                      0
          Kansas City                        4                       0                      0
           Total                           282                      30                   11% (avg.)
Note: The Denver and Seattle Regions did not have disclaimed earnings that were originally reported to
obtain IRS and/or SSA benefits. The Philadelphia, Boston, and Kansas City Regions had these types of
earnings items but did not move them to the ESF.

We also found that SSA appropriately deleted 243 (86 percent) of the 282 disclaimed
earnings items. SSA took other actions for the remaining 9 disclaimed earnings items
(3 percent). 22




20
  SSA POMS, RM 03816.016 - General Information on the Transfer of Earnings. This section states
earnings should be transferred to the correct earnings record when possible. When the correct record
may not be ascertained, earnings may be transferred to the ESF.
21
  All the earnings items moved from an individual earnings record to the ESF had a special indicator,
Self-Employment Earnings Discrepancy, which prevented the item from being placed back on the original
earnings record using one of SSA’s automated processes. However, it is possible the items could be
manually reinstated or moved to another earnings record.
22
  These nine disclaimed earnings items were either transferred to another account or otherwise adjusted.
For instance, seven of these earnings items were moved from one earnings record to another.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                       9
QUESTIONABLE EARNINGS NOT ADDRESSED

We found that while SSA employees removed earnings after the 157 individuals
associated with the 282 earnings items admitted the earnings were not legitimate, no
actions were taken on other questionable earnings reported by the individuals. During
our review period (TYs 2000 to 2003), 25 of the 157 individuals who admitted they did
not earn any form of SEI had reported additional SEI of over $354,000 that SSA did not
appear to question. While SSA staff removed earnings for some years from these
25 individuals’ earnings records, the staff did not remove 35 similar earnings items for
other years.

For example, an Arkansas FO removed almost $20,000 from an individual’s earnings
record for TYs 2003 and 2004 after the individual admitted the SEI was not earned and
was used to qualify for the EITC. However, this individual had over $28,000 of SEI
recorded for TYs 2000, 2001, and 2002 that was not removed and apparently not
questioned. These earnings, if not legitimate, could lead to improper benefit payments.

When we expanded our analysis to an 11-year period (TYs 1995 to 2005), we
determined that 51 of the 157 individuals who admitted they did not earn SEI had
additional SEI of over $968,000 that SSA did not question. These 51 individuals had
reported an additional 130 similar earnings items for this period that SSA did not review.

As an example, SSA removed about $14,000 in SEI that was recorded on an
individual’s earnings record for TYs 2000 and 2001 after the individual admitted she did
not earn the money and filed tax returns for a “tax write-off.” This individual had similar
amounts of SEI recorded for TYs 1995 to 1999 that SSA did not remove or address,
and became eligible for Social Security disability benefits in September 2002. If the
1995 to 1999 SEI had not been used in her benefit computations, she would have
received about $16,000 less in benefits from her date of entitlement through December
2006.

UNKNOWN REASONS

FO staff deleted 637 (31 percent) of the 2,066 SEI items for which SSA’s records did
not contain sufficient information to determine why they were originally reported and
later disclaimed. These earnings items totaled over $5.4 million in alleged SEI.
Deleting the earnings rather than moving them to the ESF indicates the FOs determined
the earnings did not represent a real event. However, the FOs did not record sufficient
information in the ICOR system for others to reach the same conclusion. These
637 earnings items that were deleted occurred in all 10 SSA regions, as shown in
Table 4.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                       10
Table 4: Deleted Earnings Items with Insufficient Information (TYs 2000 – 2003)
                                  Total Earnings Items                                    Percent of
                                       Disclaimed               Earning Items           Earnings Items
           SSA Region                  (Unknown)                   Deleted                 Deleted
            Denver                            8                         5                    63
          Kansas City                        93                        42                    45
         San Francisco                      323                       127                    39
           Chicago                           84                        32                    38
          Philadelphia                      154                        57                    37
             Dallas                         172                        56                    33
            Atlanta                         237                        75                    32
           New York                         953                       238                    25
            Boston                           26                         4                    15
            Seattle                          16                         1                      6
              Total                       2,066                       637                 31% (Avg.)

We determined 1,363 (66 percent) of the 2,066 disclaimed earnings items with
insufficient ICOR information were transferred to the ESF. These earnings items totaled
almost $12.7 million in SEI. SSA took other actions for the remaining 66 (3 percent)
earnings items, representing about $587,000 in SEI. 23

REINSTATEMENTS FROM THE ESF TO EARNINGS RECORDS

Among the 2,348 removed earnings items, we determined that 109 earnings items were
later moved back (reinstated) to the individual’s earnings records from the ESF. These
earnings items totaled over $1 million in disclaimed SEI reported by 59 individuals. We
could not find any evidence that the SSA offices contacted the individuals regarding
these reinstatements, nor did SSA staff provide an explanation as to why it was done.
As a result, these disclaimed earnings could be used to generate improper benefit
payments.

In one case, a FO removed over $62,000 of SEI for TYs 1997 through 2003 from an
individual’s earnings record after the individual stated she was never self-employed and
a tax preparer prepared her return to get a refund. About 2 years later, another FO
reinstated almost $34,000 of the SEI for TYs 1998 through 2001 with no explanation.

Offices in one SSA region processed 81 (74 percent) of these potentially erroneous
transactions totaling about $740,000 that were originally reported by 43 individuals. We
discussed these cases with the appropriate regional employees and referred the cases
to them for action. After their review, regional staff agreed that the majority of the
earnings should not have been reinstated, noting that regional staff were given refresher
training to prevent future occurrences.




23
     These 66 disclaimed earnings items were either transferred to another account or otherwise adjusted.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                      11
COORDINATION WITH THE INTERNAL REVENUE SERVICE
We found that FOs did not always notify the IRS of disclaimed earnings that potentially
involved fraud. In addition, FOs did not always capture sufficient information from
individuals to assist the IRS with potential investigations.

NOTIFYING THE IRS OF EARNINGS INVOLVING FRAUD

Among the 282 disclaimed earnings items associated with potential tax fraud and/or
attempts to acquire SSA benefits, we determined the IRS was not notified about
35 (12 percent) of the removed earnings items. These 35 earnings items represented
almost $336,000 of nonexistent SEI. The IRS was notified of the SEI adjustments for
247 of the 282 earnings items.

SSA’s ICOR system is used to notify the IRS about an SEI adjustment. SEI adjustment
data are to be sent to the IRS if earnings are deleted, added, or changed 24 within SSA’s
statute of limitations. 25 After the time limit expires, an individual’s earnings record may
be changed if there is an exception to the time limit. The ICOR system can be
overridden and the IRS notified after this time limit for certain exceptions, one of which
is fraud. 26

Moreover, since we found that SSA processed 32 of the 35 earnings items adjustments
within the statute of limitations, it is not clear why FOs did not notify the IRS of the
adjustments processed within the time limit.

Unknown Reasons

We also reviewed the 2,066 disclaimed earnings items with insufficient ICOR
information to determine if they were reported to the IRS. We found that:

     •   1,373 (66 percent) earnings adjustments were not reported to the IRS,
     •   688 (33 percent) earnings adjustments were reported to the IRS, and
     •   we could not determine whether the IRS was notified of the remaining
         5 (1 percent) adjustments.



24
   SSA POMS, RM 01103.003 – SSA’s Role in Support of Tax Laws. This POMS states SSA should
inform the IRS of changes in employment or self-employment tax liability based on SSA determinations.
25
  SSA POMS, RS 02201.001.B.2.a. – Establishing and Maintaining Earnings Records. This POMS
defines the time limitation for revising an earnings record for cases after July 31, 1956 as “…3 years,
3 months, 15 days after the “year” in which wages were paid or SEI derived.”
26
  SSA POMS, RS 02201.008 – Exceptions to the Statute of Limitations lists other applicable exceptions,
including (1) application for benefits, (2) written request for revision, (3) apparent error, (4) conforming to
tax return, (5) errors in allocation, (6) SEI included in place of wrongly reported wages, and (7) SE returns
were filed but there is no SEI on the earnings record.


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                          12
Of the 1,373 earnings adjustments not reported to the IRS, 1,284 were processed by
SSA within the time limit for notifying the IRS. We could not determine what should
have been reported to the IRS in these instances because SSA’s records lacked
sufficient detail to make such a determination, although the ICOR system should have
defaulted to notify the IRS for adjustments processed within the statute of limitations.

Electronic Data

Although the ICOR earnings information could be sent electronically to the IRS, a paper
listing of these ICOR transactions was printed in SSA’s Office of Central Operations and
mailed to an IRS Post Office box in Pennsylvania. SSA and IRS staff told us that
sharing the information electronically had been discussed, but the IRS had not
specifically requested an electronic report. However, sharing information in this form
requires manual processing which, in addition to being labor intensive, may introduce
errors since manual input is generally less reliable than electronic transfer of data.

PROVIDING SUFFICIENT INFORMATION TO THE IRS

The IRS requested that SSA obtain a signed Statement of Claimant or Other Person
(SSA-795) from individuals involved in cases where the individual reported SEI to claim
the EITC. 27 The SSA-795 should state that the SEI was not earned by the individual
and was used to obtain the EITC. Upon receipt of the signed statement, the IRS can
take appropriate actions, including civil penalties and/or banning the individual from
receiving the EITC.

We reviewed a sample of case folders related to individuals whom SSA determined had
provided overstated earnings related to tax fraud and/or an attempt to acquire SSA
benefits. We found the case folders did not contain required information for the IRS to
pursue potential fraud in 20 of the 25 cases. In our review of the 25 sample folders, we
determined whether a signed SSA-795 was prepared to document the reason for
disclaimed earnings and was signed by the earner. We requested 25 folders and found:

     •   5 folders had a signed SSA-795 with sufficient information for the IRS;
     •   8 folders lacked a signed SSA-795 and the ICOR system made no reference to
         its existence;
     •   5 folders lacked a signed SSA-795, though the ICOR system referred to the
         forms, indicating that the folders were incomplete;
     •   5 folders had a signed SSA-795, but it did not have sufficient information for the
         IRS; and
     •   2 folders were not received.

27
   SSA POMS, RS 01804.070 – Bona Fide Reporting is in Doubt. The SSA-795 is a written statement
signed by the individual over a penalty clause, which states “I declare under penalty of perjury that I have
examined all the information on this form, and on any accompanying statements or forms, and it is true
and correct to the best of my knowledge. I understand that anyone who knowingly gives a false or
misleading statement about a material fact in this information, or causes someone else to do so, commits
a crime and may be sent to prison, or may face other penalties, or both.”


Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                        13
We were unable to determine whether any of the signed statements were sent to the
IRS. When we asked SSA staff in four regions what happened to these forms, we
learned the policy differs by region. Some regions maintain the Form in their FOs, while
others are not collecting the Forms. In none of the cases were we told that the Form
had been shared with the IRS.

SOCIAL SECURITY ADMINISTRATION ACTIONS
Agency management was aware individuals were reporting overstated SEI to become
eligible for the EITC and/or Social Security benefits and had taken steps to address the
problem. For example, SSA met with the IRS and discussed methods of inter-agency
data sharing. In addition, the Agency was preparing new guidance informing FOs and
other components about the scheme and providing specific instructions to employees
when processing these cases. These proposed instructions included the following:

•   an explanation in the ICOR system to alert both SSA and IRS employees of the
    situation;
•   instructions on when to delete the overstated earnings from the individual’s earnings
    record;
•   instructions on how to notify the IRS of actions taken by SSA; and
•   instructions on how to obtain a signed SSA-795 with sufficient information for the
    IRS and how to send the Form to a central SSA location.

In addition to Agency Headquarters actions, we determined that the Atlanta, Dallas,
New York, and Philadelphia Regions have issued instructions for processing these
types of cases. While these instructions vary, they alerted FOs to some of the problems
identified in this report. See Appendix E for more information.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                     14
                                                   Conclusions and
                                                  Recommendations
Our review indicated that SSA has encountered instances where individuals knowingly
overstated SEI, but the Agency’s procedures for resolving these matters were not
consistently applied, and the IRS was not always receiving the information it needed to
properly review these matters. For example, we found that some of the disclaimed
earnings were erroneously placed in SSA’s ESF, and FOs were not always collecting
the data the IRS would need to investigate these instances of potential tax fraud.

To ensure consistent procedures for removing disclaimed SEI as well as the sharing of
this information with the IRS, we recommend SSA:

1. Review the questionable earnings items identified in this audit where earnings may
   need to be removed from individuals’ earnings records to prevent improper future
   SSA payments.

2. After incorporating information included in this report, as appropriate, issue national
   instructions to FOs for processing SEI cases where income has been overstated,
   including information on when to delete such earnings, how to document such cases
   in SSA’s electronic records, when to notify the IRS, and how to complete and
   forward Form SSA-795.

3. Upon issuance of national instructions to FOs for processing SEI cases where
   income has been overstated, provide appropriate training to FO staff to ensure
   consistent implementation.

4. Discuss data-sharing options with the IRS to determine if an electronic version of
   ICOR transactions would be more useful.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix F.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                      15
                                           Appendices




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                                                     Appendix A

Acronyms
 EITC              Earned Income Tax Credit
 ESF               Earnings Suspense File
 FO                Field Office
 ICOR              Item Correction System
 IRS               Internal Revenue Service
 MEF               Master Earnings File
 POMS              Program Operations Manual System
 SECA              Self-Employment Contribution Act
 SEI               Self-Employment Income
 SSA               Social Security Administration
 SSN               Social Security Number
 TY                Tax Year

 Forms
 SSA-795           Statement of Claimant or Other Person
 W-2               Wage and Tax Statement




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                                                                   Appendix B

The Earned Income Tax Credit
The Earned Income Tax Credit (EITC) is a refundable tax credit for people with earned
income under $34,692 (in Tax Year 2003) who meet other eligibility requirements. 1 The
EITC was implemented in 1975 to help offset payroll taxes, including Social Security
and Medicare taxes, incurred by low-income working parents and to encourage parents
to work. 2 While primarily for parents, there is a small tax credit for low-income workers
who do not have a qualifying child.

The credit amount rises with earnings, levels out, and then diminishes with additional
earned income. In Table B-1 we provide Tax Year 2003 dollar amounts for the EITC.

                  Table B-1: Earned Income Tax Credit Amounts (Tax Year 2003)
            Number of                                        Earned Income Range
            Qualifying                                        to Obtain Maximum      Upper Income
             Children           Maximum Credit                      Credit           Limit for Credit
              2                       $4,204                 $10,500 to $14,750            $34,692
              1                       $2,547                  $7,450 to $14,750            $30,666
              0                        $382                   $4,950 to $7,250             $12,230
Note: Amounts relate to some filing as “married filing jointly.”

In addition to the above income limits, individuals must meet all eligibility requirements
to claim the EITC, including:

      •   possessing a valid Social Security number;
      •   residency and filing status requirements;
      •   qualifying children must meet relationship, age and residency tests; and
      •   age and other eligibility factors without a qualifying child.




1
    Earned Income Credit (EIC), IRS Publication 596, 2003.
2
    The Earned Income Tax Credit, Welfare Information Network, April 2000.

Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                                                      Appendix C

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed Internal Revenue Service (IRS) publications and instructions to gain an
    understanding of the Earned Income Tax Credit (EITC) process, including eligibility
    criteria.

•   Reviewed any applicable Office of the Inspector General, Government Accountability
    Office, and Treasury Inspector General for Tax Administration reports and other
    relevant documents.

•   Interviewed SSA staff to gain an understanding of the scope of overstated self-
    employment income (SEI) being reported and how SSA staff removes SEI from
    individual’s earnings records.

•   Interviewed SSA and IRS staff to gain an understanding of SSA/IRS communication
    in this area.

•   Reviewed cases where SSA had removed SEI using the Item Correction (ICOR)
    system. The SEI was originally posted for Tax Years 2000 to 2003 and met specific
    criterion, such as dollar amounts. The cases were reviewed using SSA’s records,
    including the Master Earnings File, SEI Earnings Suspense File (ESF), Numident,
    ICOR, and case folders. Using information from these records, we focused on those
    cases where (1) the reasons cited for the overstated SEI was potential tax fraud
    and/or acquiring SSA benefits or (2) the overstated SEI was removed and there was
    insufficient information to determine why the SEI was originally reported.

•   For the SEI earnings items, we determined whether (1) SEI items were properly
    deleted and/or moved to the ESF and (2) the ICOR system indicated the IRS was
    properly notified. We also selected a sample of 25 cases to determine whether the
    Statement of Claimant or Other Person (SSA-795) was properly prepared and
    forwarded, when necessary. We highlighted these trends by SSA region.

•   Shared our results with SSA staff and contacted each SSA region to determine what
    additional guidance may have been shared relating to these SEI problems.

Our audit did not include an evaluation of SSA’s internal controls over the SEI reporting
or recording processes. The purpose of our audit was to determine whether Title II
beneficiaries had overstated SEI on their Federal income tax returns for Tax Years 2000

Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                    C-1
to 2003, and, if so, the effect on SSA programs. We were limited to reviewing cases
where SSA had removed SEI from an individual’s earnings record using the ICOR
system because only these cases contained information as to why the SEI was
originally reported and later removed. The entities audited were SSA’s Offices of the
Regional Commissioner under the Office of the Deputy Commissioner for Operations,
and the Office of Earnings, Enumeration and Administrative Systems under the Deputy
Commissioner for Systems. We conducted our audit between April 2005 and
December 2006 in Philadelphia, Pennsylvania. We conducted our audit in accordance
with generally accepted government auditing standards.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                 C-2
                                                                                Appendix D

Non-Legitimate Earned Income Tax Credit
Process
Self-employed individuals report self-employment income (SEI) to the Internal Revenue
Service (IRS) on a Profit or Loss from Business (Schedule C) and Self Employment Tax
(Schedule SE) attached to a Federal income tax Form 1040. 1 The IRS then sends this
SEI information to the Social Security Administration (SSA) where it is recorded within
an individual’s earnings record.

Individuals reporting SEI are liable for paying Self-Employment Contribution Act (SECA)
tax on self-employment earnings. 2 If the SECA tax due is less than the refund, the
SECA tax is deducted from the refund, netting the individual a refund without paying any
taxes. The individual may also receive Social Security and Medicare coverage by
having the SECA tax deducted from the refund.

Shown is an example where an individual falsely reported SEI in Tax Year 2001 of
$7,200 as a child care provider on her Federal tax return, making her eligible for the
Earned Income Tax Credit (EITC). The EITC was paid from the Department of the
Treasury’s General Fund, and the SECA tax was paid from the General Fund to SSA’s
Old Age, Survivors, and Disability Insurance Trust Funds. The difference between the
EITC and the SECA tax was refunded to the individual. SSA later removed the
overstated 2001 SEI from the individual’s earnings record and notified the Internal
Revenue Service (IRS) that they had removed the earnings. We do not know whether
the IRS ever recovered this EITC payment.




1
 Tax Guide for Small Business (For Individuals who use Schedule C or C- EZ), IRS Publication 334,
2006.
2
    Ibid.

Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                                  D-1
  Figure D-1: Non-Legitimate Earned Income Tax Credit Process1
                                     Individual overstates
                                     self-employment income
                                     (SEI) of $7,190
                                     claiming work as a
                                     child care provider.




                                       IRS
          Internal Revenue Service (IRS) provides an Earned Income
          Tax Credit of $2,270 from Treasury’s General Fund and
          individual uses credit to pay Self-Employment Contributions
          Act tax of $1,016 to SSA’s Trust Fund.2




          IRS refunds                SSA receives SEI information
          individual                 from IRS and posts $6,640 to
          the amount                 the individual’s Master Earnings File
          of $1,254.                 record and increases their Title II
                                     benefit, if applicable.



    Note 1: The amounts shown below are from an actual taxpayer’s forms. They are shown as
    an example of a specific calculation. We did not include all amounts used to generate the
    numbers provided.
    Note 2: The individual’s income is not subject to income tax since the standard deduction
    and personal exemptions reduced their taxable income to zero.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                          D-2
                                                                                                                           Appendix E

   Regional Instructions for Processing Overstated Self-
   Employment Income Cases
   Four of the Social Security Administration’s (SSA) 10 regions have recently issued instructions for processing self-
   employment income (SEI) cases where individuals have reported overstated income to become eligible for the Earned
   Income Tax Credit (EITC) and/or Social Security benefits. These instructions vary by region, with the New York
   Region’s instructions being the most comprehensive. Table E-1 summarizes the contents of the regional instructions.

                          Table E-1: Regional Instructions for Processing Overstated SEI Cases1
                     Informs                                                                                 Requires         Requires
                       Field      Requires                                   Instructs      Requires        Notification    Notification to
                      Offices     Interview   Requires       Requires         FOs to       Completion       to Internal      Office of the
                      (FO) of         of      Proof of     Notification       Remove         of Form         Revenue          Inspector
                                                                                                     2
       Region        Problem       Person      Income       to Region           SEI         SSA-795          Service           General
    New York             Y            Y           Y             Y                Y               Y               Y                Y
    Philadelphia         Y            Y           Y             Y                -               -               -                -
    Atlanta              Y            Y           Y             Y                -               -               -                -
    Dallas               Y            Y            -            Y                -                               -                 -
   Note 1: When we contacted all of the SSA regions, six stated they had not issued similar instructions – Boston, Chicago, Denver, Kansas
   City, San Francisco and Seattle.
   Note 2: Statement of Claimant or Other Person (SSA-795) is a written statement signed by the individual over a penalty clause, which states “I
   declare under penalty of perjury that I have examined all the information on this form, and on any accompanying statements or forms, and it is
   true and correct to the best of my knowledge. I understand that anyone who knowingly gives a false or misleading statement about a material
   fact in this information, or causes someone else to do so, commits a crime and may be sent to prison, or may face other penalties, or both.”




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                                                     Appendix F

Agency Comments




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
                                 SOCIAL SECURITY

MEMORANDUM


Date:      July 11, 2007                                               Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Overstated Earnings and Their
           Effect on Social Security Administration Programs" (A-03-05-25018)--
           INFORMATION

We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

Attachment:
SSA Response




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                              F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “OVERSTATED EARNINGS AND THEIR EFFECT ON SOCIAL SECURITY
ADMINISTRATION (SSA) PROGRAMS" (A-03-05-25018)

Thank you for the opportunity to review and provide comments on this draft report. Our
responses to the specific recommendations are provided below.

Recommendation 1

SSA should review the questionable earnings items identified in this audit where earnings may
need to be removed from individuals’ earnings records to prevent improper future SSA
payments.

Comment

We agree. We will proceed with case reviews upon issuance of national instructions.

Recommendation 2

After incorporating information included in this report, as appropriate, issue national instructions
to field offices (FO) for processing self employment income (SEI) cases where income has been
overstated, including information on when to delete such earnings, how to document such cases
in SSA’s electronic records, when to notify the Internal Revenue Service (IRS), and how to
complete and forward Form SSA-795.

Comment

We agree. We have drafted a Program Operations Manual System (POMS) instruction that
incorporates all of the requirements of this recommendation. These instructions should be
released to all SSA FOs by the end of July 2007.

Recommendation 3

Upon issuance of national instructions to FOs for processing SEI cases where income has been
overstated, provide appropriate training to FO staff to ensure consistent implementation.

Comment

We agree. We will provide appropriate training once new POMS instructions are released.

Recommendation 4

SSA should discuss data-sharing options with the IRS to determine if an electronic version of
item correction transactions would be more useful.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                               F-2
Comment

We agree. We recently met with IRS to discuss the data sharing of item correction transactions in
an electronic format. IRS is currently working on a proposed system environment that would
allow them to receive the item correction data electronically. IRS anticipates a timeframe of 1 to
2 years to be ready to accept data electronically. Therefore, until IRS has more precisely defined
and developed the capability to accept the item correction data electronically, we cannot move
forward with implementing a data sharing process.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)                            F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments
In addition to those named above:

   Michael Thomson, Auditor-in-Charge

   Richard Devers, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-25018.




Overstated Earnings and the Effect on SSA Programs (A-03-05-25018)
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
